<html>
<title> - GENERAL SERVICES ADMINISTRATION ACQUISITION OVERSIGHT AND REFORM</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


    GENERAL SERVICES ADMINISTRATION ACQUISITION OVERSIGHT AND REFORM

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         GOVERNMENT OPERATIONS

                                AND THE

                            SUBCOMMITTEE ON
                         INFORMATION TECHNOLOGY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 12, 2017

                               __________

                           Serial No. 115-53

                               __________

Printed for the use of the Committee on Oversight and Government Reform

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                       
                       
                                __________
                                

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-781 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1275627d52716761667a777e623c717d7f3c">[email&#160;protected]</a>                    
                       
                       
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Blake Farenthold, Texas              Jim Cooper, Tennessee
Virginia Foxx, North Carolina        Gerald E. Connolly, Virginia
Thomas Massie, Kentucky              Robin L. Kelly, Illinois
Mark Meadows, North Carolina         Brenda L. Lawrence, Michigan
Ron DeSantis, Florida                Bonnie Watson Coleman, New Jersey
Dennis A. Ross, Florida              Stacey E. Plaskett, Virgin Islands
Mark Walker, North Carolina          Val Butler Demings, Florida
Rod Blum, Iowa                       Raja Krishnamoorthi, Illinois
Jody B. Hice, Georgia                Jamie Raskin, Maryland
Steve Russell, Oklahoma              Peter Welch, Vermont
Glenn Grothman, Wisconsin            Matt Cartwright, Pennsylvania
Will Hurd, Texas                     Mark DeSaulnier, California
Gary J. Palmer, Alabama              Jimmy Gomez,California
James Comer, Kentucky
Paul Mitchell, Michigan
Greg Gianforte, Montana

                   Jonathan Skladany, Staff Director
                  Rebecca Edgar, Deputy Staff Director
                    William McKenna, General Counsel
               Katie Bailey, Subcommittee Staff Director
                Troy Stock, Subcommittee Staff Director
                      Julie Dunne, Senior Counsel
                          Kiley Bidelman,Clerk
                 David Rapallo, Minority Staff Director
                 Subcommittee on Government Operations

                 Mark Meadows, North Carolina, Chairman
Jody B. Hice, Georgia, Vice Chair    Gerald E. Connolly, Virginia, 
Jim Jordan, Ohio                         Ranking Minority Member
Mark Sanford, South Carolina         Carolyn B. Maloney, New York
Thomas Massie, Kentucky              Eleanor Holmes Norton, District of 
Ron DeSantis, Florida                    Columbia
Dennis A. Ross, Florida              Wm. Lacy Clay, Missouri
Rod Blum, Iowa                       Brenda L. Lawrence, Michigan
                                     Bonnie Watson Coleman, New Jersey
                                 ------                                

                 Subcommittee on Information Technology

                       Will Hurd, Texas, Chairman
Paul Mitchell, Michigan, Vice Chair  Robin L. Kelly, Illinois, Ranking 
Darrell E. Issa, California              Minority Member
Justin Amash, Michigan               Jamie Raskin, Maryland
Blake Farenthold, Texas              Stephen F. Lynch, Masschusetts
Steve Russell, Oklahoma              Gerald E. Connolly, Virginia
                                     Raja Krishnamoorthi, Illinois
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 12, 2017....................................     1

                               WITNESSES

Mr. Alan Thomas, Commissioner, Federal Acquisition Service, 
  General Services Administration
    Oral Statement...............................................     7
    Written Statement............................................    10
Mr. Rob Cook, Deputy Commissioner and Director of Technology 
  Transformation Services, General Services Administration
    Oral Statement...............................................    14
    Written Statement............................................    16

                                APPENDIX

In-hearing inquiry response from Mr. Alan Thomas to Chairman 
  Meadows........................................................    30
Questions for the Record for Mr. Alan Thomas submitted for the 
  record by Chairman Meadows, Ranking Member Connolly, and Mr. 
  Lynch..........................................................    34
Questions for the Record for Mr. Rob Cook, submitted by Chairman 
  Hurd...........................................................    45

 
                    GENERAL SERVICES ADMINISTRATION
                    ACQUISITION OVERSIGHT AND REFORM

                              ----------                              


                        Wednesday, July 12, 2017

                  House of Representatives,
 Subcommittee on Government Operations, joint with 
         the Subcommittee on Information Technology
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittees met, pursuant to call, at 2:04 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Mark Meadows 
[chairman of the Subcommittee on Government Operations] 
presiding.
    Present from Subcommittee on Government Operations: 
Representatives Meadows, Hice, Jordan, Massie, Blum, Connolly, 
Maloney, and Lawrence.
    Present from Subcommittee on Information Technology: 
Representatives Hurd, Connolly, Kelly, Lynch, and 
Krishnamoorthi.
    Also Present: Gowdy
    Mr. Meadows. The Subcommittee on Government Operations and 
the Subcommittee on Information Technology will come to order. 
And without objection, the chair is authorized to declare a 
recess at any time.
    Welcome. I'm pleased to hold this hearing to hear from the 
acquisition and technology leaders at the General Service 
Administration, also called GSA. And in June, GSA announced a 
realignment of the Technology Transformation Service within the 
Federal Acquisition Service that I'd like to really understand 
a little bit better.
    I'd also like to continue up on our conversation that 
started in March of this year in the hearing on the Federal 
Acquisition System challenges and reforms. Annually, FAS is 
responsible for over $50 billion in goods and services bought 
by the Federal Government, while the TTS focuses primarily on 
the technology modernization.
    So in May of 2016, GSA established the TTS as a stand-alone 
service to consolidate technology-related functions and to 
assist other agencies with technology transformation.
    And just over a year later, GSA has realigned TTS so that 
it is no longer a stand-alone service, and the director of the 
TTS now reports to a FAS commissioner. And so I'd like to hear 
more about that from GSA and about the thinking behind that 
realignment.
    Second, I'd like to continue the conversation we started in 
March about the Federal acquisition challenges that make it 
difficult for the government to buy goods and services at the 
best price and in a timely manner. The ever-increasing 
complexity of the system and associated compliance costs have a 
lot to do with these challenges.
    The Federal Acquisition Regulation, or FAR, as it's 
sometimes referred to, has over 2,000 pages, and each agency 
has associated supplements to FAR. Like GSA, which has the 
general service acquisition regulations, we understand that 
these complex compliance issues make it very problematic.
    And so I'm looking forward to hear how we overcome those 
compliance costs. But let me just highlight one area, because 
there's some indication that the compliance costs alone cost 
over $4 billion annually.
    Now, the cost of this complexability--or complexity is 
actually passed through in terms of higher costs for the 
customer. In fact, GSA's own IG found that 75 percent of the 
top selling products on the GSA IT schedule actually could be 
bought 13 percent lower on the open market than the lowest 
price on the schedule.
    Now, you would think if we're buying in bulk and buying in 
volume that we would get the best prices, and yet, that's not 
what it shows. The big $473 billion fiscal year 2016 
contracting spending question is, what do we do about these 
challenges? How do we fix it?
    So in January, the administration issued an executive order 
on reducing regulation and controlling regulatory cost, which 
presents an opportunity to reduce some of this complexity in 
Federal acquisitions. And in May, I dropped a bill that would 
actually codify this executive order, which I invite all of my 
colleagues to join.
    Clearly, this is an issue that both Congress and the 
administration is focused on. Since GSA is a member of the 
rulemaking body for the FAR council, and as a leader of several 
large acquisition programs, they should seize the opportunity.
    Finally, a word about a specific acquisition reform 
proposal. Our committee has been working with Chairman 
Thornberry on the online marketplace proposal in the National 
Defense Authorization Act. And we heard from one of the 
witnesses in the March hearing that suggested that we needed to 
go bold in acquisition reform.
    This proposal actually would meet that requirement. And 
under this proposal, GSA would be directed to establish a 
program to buy commercial products by contracting with several 
online marketplace providers. These marketplaces would provide 
a rapid point-and-click transaction dynamic, pricing, and 
delivery of goods under a standard commercial term and 
condition.
    So in order to inform a continued consideration for this 
proposal, I'd be interested in hearing what the GSA thinks on 
this particular proposal given their significant role in 
potentially implementing it.
    I'd like to thank each of you for being here today, for the 
witnesses, and I look forward to hearing your testimony.
    And with that, I'll recognize my good friend and the 
ranking member from--the gentleman from Virginia, Mr. Connolly.
    Mr. Connolly. Thank you so much, Mr. Chairman. And thanks 
for calling today's hearing on the General Service 
Administration recent reorganizations.
    GSA's Federal Acquisition Service plays an important role 
in Federal procurement policy, procuring government-wide 
solutions to products such as telecommunications, goods and 
services, and technology.
    In past administrations, both Republican and Democratic, 
the Federal Acquisition Service has been led by career civil 
servants to ensure that political considerations were not 
involved in the Federal acquisition process.
    It's important the taxpayers know that when the Federal 
Government spends money on things from office supplies to 
information technology, the contract is negotiated on a 
nonpartisan basis in the best interest--hopefully--of the 
taxpayer.
    GSA also plays an important role in implementing the 
Federal risk and authorization management program, which 
standardizes the way the government is to conduct security 
authorization for cloud products and services.
    Over the past year and a half, after numerous concerns 
expressed by this committee and by the private sector, I 
convened a FedRAMP stakeholders meeting to discuss FedRAMP's 
shortcomings, including costly and delayed certifications.
    Fortunately, those efforts along with the work of the 
program management office, have actually resulted in 
significant progress over the last year and a half. FedRAMP 
Ready, FedRAMP Connect, and FedRAMP Accelerated are helping to 
streamline and speed up the certification process.
    That process had been allowed to stretch out to as much as 
2 years and multimillions of dollars in expenditures for 
applicants. That was not the intent of FedRAMP. We've made 
progress so that that's now down, for most applicants, to 4 
months.
    Although, I met with one this week that is on its third 
year and counting. So we still have progress to make, but I do 
applaud GSA for finally taking this issue seriously and making 
progress.
    GSA recently announced a reorganization effort that 
included changing the commissioner of the Federal Acquisition 
Service from a career position to a political appointment for 
the first time. GSA told committee staff in a bipartisan 
briefing this change came from the White House itself.
    This would raise concerns in any administration. But for 
me, it's downright frightening in this administration. 
President Trump has the ability to fire the FAS commissioner at 
the same time that he has pending business with GSA, existing 
contracts with other agencies, and continues to receive income 
from other Federal--Federal investments with his business 
partners.
    This is a recipe for abuse of power and certainly conflict 
of interest, especially under a President who has no qualms 
about firing lead law enforcement officers investigating his 
own campaign and senior White House officials.
    I want to be clear, Mr. Thomas, and not just because you're 
my constituent, I'm in no way questioning your personal 
integrity. This is not about you personally. It's about 
ensuring that you and any commissioner who follows is protected 
from the political process.
    The GSA reorganization also consolidated the Technology 
Transformation Service into the Federal Acquisition Service. 
GSA told committee staff that the rationale for this change was 
to make it easier to find GSA's 18F program using the 
acquisition service fund.
    It was precisely GSA's use of that revolving fund, however, 
that the Office of Special Council just notified President 
Trump resulting in, quote, ``gross mismanagement.'' OSC's 
notification followed disclosures from former commissioner of 
FAS Tom Sharpe to GSA's inspector general and OSC regarding 
mismanagement and violations of law relating to the funding of 
18F.
    However, moving TTS into the Federal Acquisition Service 
does very little to address the management challenges facing 
the Technology Transformation Service and 18F that have been 
identified by the GSA Office of Inspector General. These issues 
range from disregarding GSA IT security policies for operating 
and obtaining information technology to 18F's mounting 
financial losses.
    Acting special counsel Adam Miles wrote, in a July 5, 2017, 
letter to President Trump, and I quote, ``Without additional 
details on improved management controls, the realignment does 
not address Mr. Sharpe's broader, substantiated concerns about 
mismanagement and his related questions about whether the 
taxpayers are receiving a solid benefit from this program.''
    Unfortunately, my confidence in GSA has eroded further. A 
series of actions have called the Agency's judgment and 
independence into question. GSA has resisted oversight and 
stonewalled members of this committee and other committees in 
Congress, and I'm disappointed that GSA has still not responded 
to inquiries from members of this committee regarding its 
position of President Trump's lease of the Old Post Office 
building.
    Prior to President Trump taking office, GSA expressed 
concern about whether his ownership interest would violate a 
clause in the lease that prohibits an elected official 
explicitly from holding an interest in the lease. GSA urged the 
President to fully divest his financial interest in the Old 
Post Office lease at that time.
    After the election, GSA made a complete volte-face, about 
face, and decided that the President was not in violation of 
the lease and provided no rationale for the decision. I think a 
lot of us, certainly on this side of the aisle, are 
disappointed that GSA refused to take appropriate actions to 
protect against conflicts of interest to protect the President 
as well as the public interest.
    Additionally, just yesterday, GSA decided--God knoweth 
why--to pull the plug on a 10-year effort to consolidate the 
FBI headquarters into a new location. This decision is a 
devastating blow to the hardworking men and women of the FBI 
itself who fight every day to keep this country safe.
    As reported by the GAO and numerous press accounts, the FBI 
headquarters is in disrepair and the building literally 
crumbling around its employees. This is not only devastating 
for the FBI, but it causes GSA's credibility to suffer with the 
private sector, with whom it's been working this last decade.
    A number of private sector entities, as well as local 
jurisdictions, put millions of dollars into the redevelopment 
and planning in response to the bidding process from GSA. GSA 
canceled that project yesterday. It did not notify the private 
partners with which it was working and barely gave us notice up 
here.
    This failed procurement harms GSA's credibility and, I 
think, is going to cast a cloud over the willingness of serious 
private sector entities to want to partner with GSA in any kind 
of complicated turnkey operation such as that involving the FBI 
headquarters.
    Finally, political leadership of GSA has used the Agency as 
a political weapon before, and we don't want to revisit that. 
And it's important that we don't go down that road again in 
this administration.
    It was not even 10 years ago that former GSA administrator 
Lurita Doan was forced to resign. During her tenure, Ms. Doan 
sought to use GSA to help Republican lawmakers win reelection 
and approved a $20,000 no-bid procurement order to a firm run 
by a friend, who had served as her public relations consultant 
in the private sector.
    These are the misdeeds that can occur when those at GSA 
seek to curry political favor instead of working in the best 
interest of the taxpayer. Trying to shield GSA from that 
political influence is the first step.
    With that, I yield back.
    Mr. Meadows. I thank the gentleman.
    And before I recognize the chairman of the Subcommittee on 
Information Technology, I would like to just recognize the 
congressional liaison team that's here. We thank you for being 
here. But specifically, our good friend and colleague, Mr. 
Post, welcome back. I would be remiss. And if you haven't 
prepped him in the right way, you're going to hear from me.
    But I recognize the chairman of the IT Subcommittee, the 
gentleman from Texas, Mr. Hurd.
    Mr. Hurd. Thank you, Mr. Chairman. It's good to be here 
once again in partnership with the Government Operations 
Subcommittee and Chairman Meadows and Ranking Member Connolly. 
This is our third joint hearing together in this Congress, and 
I look forward to many more.
    Back in March, we held a joint subcommittee hearing to 
review challenges in Federal acquisition of IT. What we heard 
was alarming. For example, the number of first-time Federal 
vendors had fallen to a 10-year low, down from 24 percent in 
2007 to 13 percent in 2016.
    The Federal Government is supposed to buy commercial, but 
with 34 different definitions of a commercial item in Federal 
regulation and 138 potentially applicable clauses for such 
transactions, it's hardly a situation conducive to commercial 
viability.
    One of our witnesses at the March hearing, Dee Lee, chaired 
the section 809 panel, urged Congress to go bold. Another 
witness stated that the time was ripe to change the way the 
Federal Government acquired IT.
    I look forward to hearing today how the reorganization of 
TTS will help GSA fulfill its mission. I'm also interested in 
hearing an update on how the FedRAMP program--and ways that we 
can help streamline this cumbersome but important process.
    Lastly, I want to applaud Chairman Thornberry's efforts to 
streamline acquisition within the Department of Defense and 
across the Federal Government. In an era when the click of a 
button can deliver nearly every imaginable consumer good, 
there's no reason why the U.S. Government should be jumping 
through expensive hoops to buy a pack of pencils.
    This is not an easy issue to reform. We have great 
challenges in front of us. But we also have an opportunity to 
significantly streamline our Nation's outdated acquisition 
process.
    Thank you, all, for being here, and I look forward to 
hearing from our witnesses today.
    Mr. Chairman, I yield back.
    Mr. Meadows. I thank the chairman.
    The chair now recognizes the gentlewoman, who is truly a 
definition--when you look up that in the dictionary, it should 
have your picture. And so the gentleman recognizes Ms. Kelly 
for her opening statement.
    Ms. Kelly. Thank you so much. My chair doesn't say that 
about me.
    Mr. Hurd. I was thinking it.
    Ms. Kelly. Chairman Meadows and Hurd and my colleague, 
Ranking Member Connolly, thank you for calling today's hearing. 
And thank you to our witnesses for being here today.
    There has been a series of major changes within the GSA. 
These changes deserve greater attention from Congress, and I'm 
glad that we have this opportunity to learn more about these 
decisions that directly impact GSA's ability to complete its 
mission.
    In May 2016, GSA launched the Technology Transformation 
Service, or TTS, which combined the Office of Citizens' 
Services and Innovative Technologies, the Presidential 
Innovation Fellows, and 18F to create a one-stop shop to build, 
buy, and share technology solutions. This consolidation makes 
sense but does raise some important questions, and I look 
forward to hearing your answers.
    Last month, GSA announced that TTS would be housed within 
the Federal Acquisition Service or FAS. I look forward to 
better understanding the details of this merger and how it will 
affect the work of FAS and TTS. This reorganizing was also 
accompanied by an announcement that the head of FAS would 
become a political appointee.
    For more than a decade, the FAS commissioner has been a 
career GSA employee which carries real benefits. I have some 
serious concerns about politicization--excuse me. I'm not 
feeling well--of FAS commissioner position, especially given 
the recent decision to expand FAS responsibilities to include 
TTS.
    With more and more at stake in this critical office, we 
need an FAS commissioner who can rise above the political 
volatility of our current moment and remain completely and 
totally independent. Furthermore, I'm concerned about the utter 
lack of transparency from GSA in this new administration.
    In December, following the 2016 presidential election, 
members of the Oversight Committee sent a request pursuant to 
the seven-member rule to GSA. For those unfamiliar with the 
seven-member rule, it requires an executive branch agency to 
provide any requested information by any seven members of the 
Oversight Committee.
    GSA provided the documents responsive to the requests 
within 2 weeks, and we thank you. This year, members of the 
Oversight Committee sent GSA another request pursuant to the 
seven member rule. To date, GSA has not responded to either 
request.
    This cannot be the status quo. GSA plays a critical role in 
our government, and the American people deserve answers and 
transparency, especially when those Americans are members of 
this committee.
    In the coming months and years, our committee will be 
working with GSA to continue improving and streamlining IT 
acquisition efforts, reform FedRAMP, and implement the MGTA. We 
need a GSA that is responsive, transparent, and most important, 
accountable to Congress.
    I look forward to hearing from the witnesses today. Thank 
you, and I yield back the balance of my time.
    Mr. Meadows. I thank you.
    We'll hold the record open for 5 legislative days for any 
member who would like to submit a written statement.
    We'll now recognize our panel of witnesses. They have just 
called votes, and so what we're going to do is we're going to 
do our best to get both of you to do your opening testimony 
where you can get that out of the way and then we'll take a 
recess for the question and answer portion.
    I'm pleased to welcome Mr. Alan Thomas, commissioner of the 
Federal Acquisition Service for the GSA; and Mr. Rob Cook, 
deputy commissioner and director of Technology Transformation 
Services at GSA. We welcome you, both.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify, so if you'll please rise and raise your 
right hand.
    Do you solemnly swear or affirm that the testimony you're 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    All right. Thank you. Please be seated. And let the record 
reflect that all witnesses answered in the affirmative.
    Again, in order to allow time for questions and answers and 
hopefully to get us back through this, if you'll limit your 
oral testimony to 5 minutes, but we will provide your entire 
written statement in the record.
    So, Mr. Thomas, you're now recognized.


                       WITNESS STATEMENTS

                    STATEMENT OF ALAN THOMAS

    Mr. Thomas. Thank you, Mr. Chairman.
    Good afternoon, Chairman Meadows and Chairman Hurd, Ranking 
Members Connolly and Kelly and members of the Government 
Operations and Information Technology Subcommittees. Thank you 
for the opportunity to come before you today and discuss the 
U.S. General Services Administration's Federal Acquisition 
Service.
    I'm honored to be here today for the first time as 
commissioner of the Federal Acquisition Service, or FAS, as we 
call it, as today marks my 12th day on the job. Considering my 
new tenure at the helm of FAS, I will start by giving you a 
brief overview of who I am and the perspective I will bring to 
the role of commissioner.
    I come to GSA as an outsider but with a perspective 
informed through multiple interactions with the Agency through 
different roles throughout my career. For example, I've led a 
technology startup in accessing the Federal marketplace using 
IT schedule 70 and built a $7 million business line using that 
access.
    I've participated as a consultant in the merging of the 
Federal supply service and the Federal technology service. I've 
served as a Federal employee and used the GSA managed multiple 
award schedule contract to acquire professional services in 
support of an R&D program in my portfolio.
    Finally, I've managed a rapidly growing business unit for 
one of the most successful alliance small business prime 
contract holders. These roles have shown me GSA from the 
viewpoint of a startup company and established small business 
and that of a Federal employee.
    As commissioner, I aim to keep all these perspectives in 
mind, as GSA's impact on Federal acquisition is wide and deep. 
My philosophy and approach for combining the mission and 
resources of TTS and FAS is to, first, listen intently, 
starting with the internal GSA team and our customers, then 
widening to encompass our industry partners and external 
stakeholders.
    I want to ensure that we are providing the best possible 
products and services to our customers and delivering value for 
the American taxpayer. Observing FAS from my vantage point as 
an outsider will provide valuable insight into how we achieve 
our goals.
    When meeting with programs, I've been asking three simple 
questions: What's most important to keep? What's most important 
to change? And what are the obstacles to change?
    Second, I'm going to utilize key members of the existing 
team, including my colleague and partner Rob Cook, the 
Technology Transformation Services deputy commissioner, whom 
you'll be hearing from shortly, and the rest of our senior team 
at GSA to better understand the organization's culture. The 
only expectation I bring is that our culture is compatible with 
my core values of honesty, courage, and graciousness.
    Third, I'm going to strive to be a leader without 
presumption, who's transparent in my interactions with staff, 
customers, industry, and stakeholders. I've played or coached 
team sports all my life, and I know the only way we're going to 
accomplish ambitious goals is if we all understand and play our 
roles, trust each other to find common ground, and build an 
organization with shared purpose.
    President Truman said it best when he stated, ``It's 
amazing what you can accomplish when you don't care who gets 
the credit.'' So as I delve deeper into my role in FAS over the 
next few months, my focus is going to be on execution and 
performance. I'm confident that we'll build a high-performing 
team that executes on our objectives and delivers results to 
the American people.
    Before I close, I want to tell you that in my short time at 
GSA, I'm excited about what I see and I'm optimistic about what 
we can accomplish because we have great people. I look forward 
to working in partnership with this committee to execute an 
ambitious government reform agenda laid out by the 
administration and implement innovative legislation, such as 
the Modernizing Government Technology Act, the value-based 
procurement bill, and the National Defense Authorization Act.
    There is still a lot more work that needs to be done, but 
I'm confident that together we're going to make a lasting 
impact delivering value for the American taxpayer. Thank you 
for the opportunity to come here today, and I look forward to 
answering your questions about how best to encourage innovation 
and reform.
    [Prepared statement of Mr. Thomas follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Meadows. Thank you, Mr. Thomas. You actually get an A 
for your opening statement on 12 days. Anybody who comes in 
under 5 minutes certainly gets an A from everybody up here on 
our committee. The second part is a Truman quote, it's my 
favorite quote of all time, so you get an A plus.
    Mr. Thomas. Shorter is better, Mr. Chairman.
    Mr. Meadows. Yeah, amen.
    Mr. Cook, you've got a high bar to accomplish here. You're 
recognized.


                     STATEMENT OF ROB COOK

    Mr. Cook. I'm nervous.
    Thank you, Chairman Meadows, Chairman Hurd, Ranking Members 
Connolly and Kelly. I really appreciate the opportunity to come 
here and talk to you about technology. I like doing that.
    And everyone here is familiar with the problems that are 
facing Federal IT: You know, we have too many legacy systems; 
systems are insecure. They're expensive to maintain; and our 
technology projects are frequently over budget, behind 
schedule, and don't really deliver even at that on what they 
promised.
    So there seems to be a broad agreement on the problem. The 
question is what do we do about it. Fortunately, there have 
been also been a number of government successes in technology 
recently, and we now know what works inside government to 
approach this.
    And it's a combination of three factors: It's getting the 
right talent; it's the partners; and process. So let me talk 
about each of those. First on talent, we'll never solve the 
problem unless we've got great, top tech talent inside 
government.
    We've learned that some great people in technology will 
come to government as career Feds, but a lot more have private 
sector careers. And they don't necessarily want a lifetime 
career in government, but they're happy to come serve for a 
tour of duty. This gives us a bigger pool of applicants, and it 
gives a constant refresh of talent from the front lines because 
technology is constantly changing.
    And let me note that having tech talent inside the 
government does not change the fact that most of the work is 
going to be done in the private sector. What this does is to 
give government the savvy it needs to be a good partner with 
the private sector, so to plan well, to make the decisions, to 
manage projects, to be a better buyer.
    So the second factor, after talent, is partners. The talent 
that's been missing is a key ingredient but it's just an 
ingredient. We cannot move the needle in government without 
people and partners inside government who know government well, 
and that includes in the agencies, in GSA, in OMB.
    And the third is the process. This old, so-called waterfall 
approach was to plan everything out in advance, but technology 
has just gotten too complex for that, and that process just 
doesn't work anymore.
    What's needed instead is an iterative planning approach, so 
you build a bit, get feedback from people who are actually 
going to use it, and course correct, and build a bit more. The 
center of the process has to be the user, and you have to be 
agile so you can change in response to their feedback.
    So we know this combination of talent, partners, and 
process works. An example is the implementation of the DATA 
Act. 18F partnered with Treasury and we took an iterative user-
centric agile approach.
    Vendors did most of the work, but we were clear about what 
we needed them to build, we managed the process well, and we 
were good partners. The result was a successful project that 
was delivered on time and under budget. That, I hear, is not 
the norm in government, but it should be.
    So government technology has its challenges, but we know 
how to address them. The chance to help in this cause is the 
reason people come to TTS. It's why I came here last fall after 
a long career in the private sector.
    It won't be easy, but this is a moment in time when we can 
actually do it. And there's several reasons that I say that, 
and I'm hopeful: First, there are these recent successes that 
we have that show us how to do it; second, for TTS, our recent 
merger with the Federal Acquisition Service gives us 
flexibilities and structural support we need to do the part 
that we're intended to play; third, FITARA has given CIOs 
authority and encouraged this incremental development 
practices; and fourth, the Modernizing Government Technology 
Act provides vital financial support, and it addresses the 
single-year funding limitation, which has been such a barrier 
to fixing the IT problem. This act is a strong and practical 
indication that we're serious about this.
    And, finally, the strong bipartisan support we've seen for 
this endeavor is crucial. I found it very moving and 
encouraging. It reinforces the fact that this work is just 
plain good for the country.
    This country of ours has largely led the technology 
revolution that's changing almost every aspect of our economy 
and society. This government of ours should not be lagging 
behind. It should be leading the way in using technology to 
provide better service, more efficiency, and more transparency 
for taxpayers.
    So we, at TTS, are excited by the opportunity before us and 
grateful to be part of the effort, and we're looking forward to 
working with agencies, with industry, and with Congress in this 
undertaking. Thank you.
    [Prepared statement of Mr. Cook follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Meadows. Thank you, Mr. Cook.
    And we will go ahead, at this point, just from a planning 
standpoint, we're going to declare a recess but no more than 15 
minutes before we probably call back in. So you can go wherever 
you want to go for 15 minutes.
    So the subcommittee stands in recess subject to the call of 
the chair.
    [Recess.]
    Mr. Meadows. All right. The subcommittees will come back to 
order. Thank you for your graciousness, for your time. 
Obviously, 15 minutes in Congress is a lot longer than 15 
minutes. My apologies.
    And I am going to go ahead and recognize myself for a 
series of questions, and then, as we get into this and some of 
the others come back--typically, when this happens, we lose a 
whole lot of energy. So my apologies. Do not take that as less 
than a--of a priority, just more as a conflict of; schedules. 
We have 20 half meetings a day, and so hopefully this is a full 
hearing as we go forward.
    So, Mr. Thomas, let me come to you. We have got an issue 
when it comes to this whole procurement side of things. And 
what I mentioned in my opening comments was the fact that I can 
go on Amazon and buy things cheaper than you can buy as a 
government contractor. How do we fix that?
    So just pure and simple, I know give 12 days in--give me 12 
days of wisdom and years of experience, if you could. How do we 
fix that, and are you all committed to getting it fixed where 
the American taxpayer quits reading about the purchase of $500 
hammers.
    Mr. Thomas. So let me first start off by saying, yes, I'm 
committed to fixing it. I mean, it's one of the reasons, when I 
was asked to serve, that I decided to come back, right, to 
streamline and simplify the procurement process.
    I mean, I think--you know, I think you raise a valid issue, 
that that definitely needs to be addressed. We're--we are 
pretty excited about the Thornberry bill and the ability of the 
commercial marketplaces and GSA's role to sort of sponsor and 
broker those and help those make--help make those work within 
the construct of the Federal procurement system. We think 
that's a real step in the right direction.
    And, you know, from our standpoint, I think we're 
supportive. We've enjoyed working with the committee on that--
with the Congress on that particular bill and helping--you 
know, helping you-all shape that legislation. So, you know, I 
think that--that's a step in the right direction.
    There are other things we're doing to try and make it 
simpler for vendors to get on schedule. So there's the making-
it-easier initiative we have within GSA which aims to cut the 
amount of time and effort it takes, particularly for small and 
innovative businesses, to get on the schedules, the information 
technology schedule. We've seen some success there in terms of 
reducing the amount of time and effort that it does take.
    So we are committed to it. We are taking steps. It's 
definitely a priority for me. And as you said, 12 days in, I'm 
listening, learning about what we're doing and then also trying 
to come up with thoughtful recommendations for how to get 
better.
    Mr. Meadows. So let me be a little bit more blunt.
    Mr. Thomas. Sure.
    Mr. Meadows. All right. So you've got all kinds of pages, 
over 2,000 pages, across agencies on what they need to do. Most 
of that is not read. It's essentially a big dust collector that 
is out there, that gets referred to if it says that we need to 
keep things the way they've always been. They refer to that 
2,000 page document that most of them have never read.
    So how do we change the culture? Because there--I found 
that there's not a whole lot of risk takers out there. And the 
minute that you do it--and I'm one that believes that we should 
be taking some risk and knowing that we will make mistakes, 
that if we do this, there will be times when we've made a 
purchase that is not appropriate.
    At the same time, under what the GSA IG found, every 
purchase is a problem, because if we're there, we certainly can 
do better than the status quo. So how do we--and maybe this is 
a question for both of you. How do we create a--truly a 
condition where they're willing to take some risk and willing 
to get 2,000 pages down to 50 pages and not use it as their 
leverage to not change?
    Mr. Thomas. Sure. So maybe I'll start, Rob, and then if you 
want to jump in. So I think a couple areas to help address your 
question. So one would be--in terms of encouraging people to 
take risk, there's a, kind of, leadership aspect to it, and 
then there's a, you know, statutory-regulatory reform aspect to 
it.
    So from a leadership standpoint, I think, from the top of 
the procurement organization, we've got to, as you said, 
encourage people to go out, think about taking risk, and not 
necessarily punish them when they make a mistake. If you're--if 
you're drilling for oil, it's okay to drill a few dry holes. 
Right? We're not necessarily going to fire you for that as long 
as you're doing your best and making an effort to comply with 
the rules.
    I think from a statutory and regulatory standpoint, you 
know, there's an effort underway. The Section 809 panel 
actually had a chance to talk with Dee Lee, who is leading that 
panel. And I know she's testified before this committee----
    Mr. Meadows. Right.
    Mr. Thomas. --a couple of times about some of the 
initiatives that they are planning to undertake there and some 
of their interim findings. And I--you know, I told her I'm 
really excited about what they're doing. Obviously it applies 
to DOD, but I think there's a great chance to take some of that 
and apply what they're doing to the civilian side of 
procurement as well. So I think there's opportunity there. So 
leadership and also, then, real concrete statutory and 
regulatory reform.
    Mr. Meadows. All right. Mr. Cook.
    Mr. Cook. Yes, I think you're right about the--you're right 
about the risk of risk culture. That's a big factor. I think 
technology can help a lot in this. Technology's changed so many 
aspects of our economy. People are shopping online. Why isn't 
that possible in the Federal Government? It is an area that's 
really ripe for change, and technology can be a big part of 
that--of that change.
    Mr. Meadows. All right. Thank you both.
    The chair recognizes the gentleman from Massachusetts, Mr. 
Lynch.
    Mr. Lynch. Thank you, Mr. Chairman. And I want to thank the 
witnesses.
    Let's follow up -up on the chairman's question. So he's 
talking about his ability to go on Amazon. And they will--if 
he's looking for a certain item, they will list 10, 20, 30 
vendors, and they'll all have different prices. Some with 
shipping; some with not. But you've got an open marketplace 
there and creates competition and drives prices down, as Mr. 
Cook was saying.
    So I have a terrible problem in my area, in Eastern 
Massachusetts, in my district, where we got some big government 
construction projects going on, and I've got some good-sized 
companies, very, very skilled. These are not mom-and-pop 
outfits. These are 5-, 600 employees. And those contractors 
cannot bid on the work that's going on in their area.
    There's a secret handshake thing going on with the DOD. We 
cannot figure out how the hell the--excuse me--how to get into 
that bidding process and open it up to competition. It is just 
shot down. It's a good ol' boy network. And, look, I've been a 
Member of Congress for a while. And we can't seem to penetrate 
that whole--you know, that whole operation.
    You got retired generals that are sort of worked in there. 
And I know we're not getting the best price. We're not getting 
the best price. They're--you know, they're driving it up 
because there's no competition. So let's go back to the 
chairman's initial question. How do we wire a system that, on 
the straight procurement basis, we can use that competition 
that Amazon uses to just put the prices out there, say, ``This 
is what we need. Give us your best price''? It would seem to be 
a fairly simple proposal. And it's working, you know, famously 
in private industry. Why can't we do that?
    Mr. Thomas. So Congressman Lynch, thanks for your question. 
I think we can. It's a short answer. I mean, I share some of 
your concern and frustration. As I mentioned, it's--you know, 
it's one of the things I'd like to focus on in my service at 
GSA. I think the bill--the NDAA bill goes some ways towards 
addressing that. There are, as you know, some specific 
regulatory and policy concerns that the Federal Government has 
that those of us who just buy as private citizens through 
Amazon don't necessarily have to take into account.
    So we want to make sure that those are accounted for in the 
appropriate way. But I do think introducing commercial 
marketplaces like that into the government buying process 
should yield some savings and some speed and offer some 
simplification.
    Mr. Lynch. When are we going to see that happen? Do we need 
to legislate that, or do you have the ability to do that 
already?
    Mr. Thomas. Well, we're supportive of the legislation 
that's before the Congress now, and we're hopeful that it will 
pass. And we--you know, as I said earlier, we'd like to try and 
fully implement it. We think there--we think there are benefits 
there. So, yes, legislation would be helpful.
    Mr. Lynch. All right. Mr. Cook, you got anything on this?
    Mr. Cook. Yes, you're right. The hurdles are--make--make 
the Federal marketplace less competitive. It disadvantages 
small businesses. As you were saying 5-
    or 600 people, which is small, I guess. But it 
disadvantages companies of that size and smaller. And it makes 
things more expensive, because--for the Federal Government 
because there are fewer bidders.
    So we are working on the technology side to try to use the 
power of technology to open things up by doing things like 
making it possible to have people buy things online in the same 
way they do at home. That's the goal, and so that's what we're 
working toward. That's the way it should be.
    Mr. Lynch. Yeah. I see. You know--so Raytheon is a big 
player in the defense industry, and I see them. They have these 
small bidder conferences where they're inviting all these small 
and mid-sized companies in to bid on parts of their contract. 
So, you know, if they can do it, I mean, we should be able to 
do the exact same thing.
    Mr. Cook. We should.
    Mr. Lynch. Yeah. All right. I yield back.
    Thank you, Mr. Chairman Cook.
    Mr. Meadows. I thank the gentleman. So let me do a follow 
up with that, because the gentleman and I agree on this.
    So here's what I would ask is--and I think you're referring 
to the language that's in the NDAA that you're hopeful that it 
gets signed into law. Is that correct, Mr. Thomas?
    Mr. Thomas. Section 801, yes.
    Mr. Meadows. Okay. So if, indeed, that gets signed into 
law, that's one good area. But here's what I would ask you give 
this committee in the next 30 days is a list of both 
legislative and administrative things that could be done to 
accomplish what Mr. Lynch and I both agree needs to be done.
    And if you can report back to this committee with a list of 
suggestions on where the--you could have an administrative fix 
and where you could have a legislative fix to accomplish that 
task.
    Is that fine with the gentleman?
    Mr. Lynch. That's perfect. Thank you, Mr. Chairman.
    Mr. Meadows. All right. All right.
    The chair recognizes recollection the gentlewoman from 
Michigan.
    Mrs. Lawrence. Thank you, Mr. Chairman. I want to thank the 
witnesses for being here today to discuss reforms--welcome--
happening at GSA. Earlier this year, I repeatedly petitioned 
the former chairman Chaffetz to address the, some people will 
say conflict of interest, or some will say the appearance, or 
some will say the concern, of our President's, Trump, 
organization lease with GSA.
    During our organization meeting, I offered up an amendment 
that requires the committee to investigate what I feel is a 
blatant conflict of interest regarding the Trump Hotel. It is 
our committee's responsibility to conduct oversight of the 
Federal Government. Hence, my concern about a political 
appointment.
    While my amendment was defeated at that time, I hope the 
committee's new leadership will reexamine these concerns. This 
is not a Democrat or Republican issue. The purpose of oversight 
committee, as I understand and took my oath to serve here in 
Congress, is that we, as a government, ensure that there are 
tax dollars that are being used in our relationships and lease 
and all of those acquisition and allocation of funds for 
purchases are done without any disrespect of the taxpayer who 
is--has an expectation of government.
    And even though the Trump--our President has moved his 
interests to a trust, placing his sons in charge is still 
deeply concerning.
    While the GSA has cleared the President of any contract 
violation, it's not hard to imagine how any future dispute 
could quickly go off the rails if there's any issue with the 
lease. Hence, a political appointment. So where is the--not 
where. I would say my concern, deep concern, is that you coming 
in--and I hear the turn--looking at this as upstart or a new 
company. And although the vision and experience that you've had 
when you look at a company that's coming in and starting and 
how you can use innovation and all the things that you're 
bringing, which we so need in government. I appreciate it.
    My question to you: How does GSA plan on approaching future 
negotiations with the children of the President of the United 
States, and how do we take this beyond this current 
administration? Where is the future for anyone coming into the 
presidential office when it comes to leases with our government 
properties where it says no elected official shall enter into a 
lease.
    And giving that this clause is standard practice to include 
on all leases, how can GSA do--what can you do to enforce 
compliance with this contract?
    Thank you.
    Mr. Thomas. Thanks for your question, Congresswoman 
Lawrence. As you know, I'm the commissioner of the Federal 
Acquisition Service. There's a sister service within GSA, if 
you will, the Public Building Service, that has an acting 
commissioner right now. So the question of leases and how we 
handle leases is really outside of my purview. I'm happy to 
take the question back to my colleagues and follow up -up with 
them with a written response to you, if that's okay.
    Mrs. Lawrence. So if it's outside, who has respond--who 
does that person report to?
    Mr. Thomas. The commissioner of the Public Building Service 
and myself, and commissioner and the Acquisition Service--
Federal Acquisition Service, we both report to the 
administrator. In this case, it's an active administrator, Mr. 
Tim Horne.
    Mrs. Lawrence. Thank you.
    Mr. Thomas. You're your welcome.
    Mr. Meadows. Does the gentlewoman yield back?
    Mrs. Lawrence. I yield back, sir.
    Mr. Meadows. All right. The chair recognizes the 
gentlewoman from Illinois.
    Ms. Kelly. Thank you, Mr. Chair.
    Mr. Thomas, I want to address GSA's lack of cooperation 
with Congress. The Trump administration released an opinion 
issued by the Office of Legal Counsel on May 1st, 2017, arguing 
that agencies and departments could ignore requests for 
documents and other information from members of Congress other 
than Republican committee chairmen.
    On June 7, 2017, Senator Chuck Grassley wrote a letter--
wrote a scathing letter to President Trump urging him to reject 
the OLC opinion. He said, and I quote, ``every Member of 
Congress is a constitutional officer duly elected to represent 
and cast votes in the interest of their constituents.'' Do you 
both agree with Senator Grassley?
    Mr. Thomas. Congresswoman Kelly, we certainly take the 
committee and the Congress's oversight role seriously. I 
believe it's an essential part of the system. The agency 
evaluates every oversight request on an individual basis, and 
I'm happy to take that concern back and get it addressed for 
you.
    Ms. Kelly. Thank you. Mr. Cook.
    Mr. Cook. This is just way outside my area of expertise, 
and so I'll just leave it to----
    Ms. Kelly. Okay.
    Mr. Cook. --with what Alan.
    Ms. Kelly. Every Member of Congress has a constitutional 
responsibility to conduct oversight of the Executive branch in 
order to inform our legislative actions. Since President Trump 
took office, however, GSA has adopted a new policy. This 
morning, GSA administrator Tim Horne testified before the House 
Committee on Transportation and Infrastructure that GSA will 
only respond to oversight inquiries from committee chairs.
    Have either of you received any guidance, written or oral, 
on how you should respond to requests for information from 
Members of Congress and their staff? And who communicated this 
policy? And how was it communicated?
    Mr. Cook. I have not.
    Mr. Thomas. I have not either.
    Ms. Kelly. Okay. The new policy appears to directly 
contradict the existing GSA policy on communications with 
Congress. On February 20th, 2015, then-GSA administrator Dan 
Tangherlini issued an order to GSA employees setting a policy 
for responding to inquiries from Congress. That order applies 
the same procedures for responding to all Members of Congress 
and their staff regardless of political party.
    Has Administrator Horne issued a new order to overturn that 
2015 order? Are any of you aware of that?
    Mr. Cook. I don't know one way or the other.
    Mr. Thomas. Yeah, I'm area aware. Again, I've only been 
there 12 days. So, I mean----
    Ms. Kelly. Right.
    Mr. Thomas. But I'm not aware of it.
    Ms. Kelly. Okay. In the absence of a new order, that 2015 
order is still in effect. So if you or anyone in your offices 
instructing GSA employees to follow a different policy for 
responding to Congress, you are telling them to violate a 
standing GSA order.
    The Whistleblower Protection Act requires that every 
executive branch policy on communications with Congress include 
language explicitly noting that the police does not affect any 
employee's legal right to communicate with Congress.
    Has GSA included the language required by the Whistleblower 
Protection Act in communications to agency staff about the new 
policy on responding to Congress?
    Mr. Thomas. Congresswoman Kelly, I don't know. I'm happy--
I'm happy to come back to you with an answer on that, but I 
don't know. I'm sorry.
    Mr. Cook. Same here.
    Ms. Kelly. Okay. Will you commit today to respond to 
requests, like you said you would, from Members of Congress 
regardless of whether they are Republicans or Democrats or 
whether they are in the majority or the minority of Congress?
    Mr. Cook. One thing that we are in the Technology 
Transformation Service is very nonpartisan. We don't care where 
that request comes from.
    Ms. Kelly. I appreciate that.
    In order to adequately address the significant issues that 
currently face GSA, it's going to require cooperation and a 
willingness to be held accountable in order for you to restore 
faith in the agency. And as you--I can see, just from sitting 
here, that all of us can work very well together, the two 
chairs and the two ranking members, to try to get things done 
in this space. So we appreciate all the cooperation we can get.
    Thank you. I yield back.
    Mr. Jordan. [Presiding]. I thank the gentlelady for her 
questioning and for yielding back.
    And we want to thank our witnesses and the support staff 
who are here today for you taking the time and filling us in.
    And with that, we are adjourned.
    [Whereupon, at 4:35 p.m., the subcommittees were 
adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
